                                                         NATIONAL SCIENCE FOUNDATION
                                                          OFFICE OF INSPECTOR GENERAL
                                                            OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM

 Case Number: I05060025
                                                                                 11             Page 1



                 NSFIOIG received an allegation of research problems and financial abuses in an NSF
          award1 made to a southwestern ~niversity.~  I reviewed this award, as well as a second award3
          made to the same Principal Investigator S PI).^

                  I identified questionable expenditures to the university, and it conducted an internal
          investigation on both awards. As a result of its investigation, the University took the following
          remedial actions: ( I ) Removed the PI from both awards; (2) de-obligated fundsSfrom the first
          award; (3) returned funds6 for the second award; and (4) instituted additional award monitoring
          procedures.

                     Accordingly, this case is closed.




          ' Redacted
            Redacted
            Redacted
          4
            Redacted
          ' Redacted
            Redacted



\JSF OIG Form 2 (1 1/02)
